HHS/OIG-Audit--"Follow-up Audit of General Accounting Office Report "Medicare - Reasonable of Health Maintenance Organization Payments Not Assured"," (A-14-92-00371)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-up Audit of General Accounting Office Report "Medicare -
Reasonableness of Health Maintenance Organization Payments Not Assured","
(A-14-92-00371)
April 27, 1992
Complete Text of Report is available in PDF format
(1.29 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report is our follow-up audit of the General Accounting Office (GAO)
report entitled, "Medicare - Reasonableness of Health Maintenance Organization
Payments Not Assured" (GAO/HRD-89-41). The objective of our follow-up review
was to ensure that the specific audit recommendations unconditionally accepted
by the Health Care Financing Administration were satisfactorily implemented
or appropriately resolved. Our review showed that the Department of Health and
Human Services (HHS) either has implemented or is implementing six of the seven
GAO recommendations. The remaining recommendation concerning placing a health
maintenance organization under a corrective action plan if it used inappropriate
data in preparing its adjusted community rate proposal was not accepted by HHS.